      ADVISORY REPORT

      COSTS CLAIMED BY THE
       STATE OF DELAWARE,
    DEPARTMENT OF NATURAL
 RESOURCES AND ENVIRONMENTAL
  CONTROL, UNDER FEDERAL AID
  GRANTS FROM THE U.S. FISH AND
     WILDLIFE SERVICE FROM
    JULY 1, 1998 TO JUNE 30, 2000




SEPTEMBER 2002   Report No. 2002-E-0010
                                                                       X-GR-FWS-0025-2002

            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240




                                                                            September 4, 2002


                               ADVISORY REPORT
Memorandum

To:        Director
           U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Delaware, Department of
           Natural Resources and Environmental Control, Under Federal Aid Grants from
           the U. S. Fish and Wildlife Service from July 1, 1998 through June 30, 2000
           (No. 2002-E-0010)

                                      Introduction
        This report presents the results of our performance of procedures to review another
audit agency’s work related to costs claimed by the State of Delaware Department of Natural
Resources and Environmental Control (Department) under Federal Aid grants from the U.S.
Fish and Wildlife Service (FWS) for the period July 1, 1998 to June 30, 2000.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize
FWS to provide Federal assistance grants to the states to enhance their sport fish and wildlife
programs. The Acts provide for FWS to reimburse the states for up to 75 percent of all
eligible costs incurred under the grants. The Acts specify that state hunting and fishing
license revenues cannot be used for any purpose other than the administration of the state’s
fish and game agencies. In addition, FWS provides grants to the states under the Clean
Vessel Act and the Endangered Species Act.
         In September 2001, another audit agency prepared a draft audit report entitled “Audit
of Delaware Federal Aid Program Grants and Payments Awarded by the U.S. Fish and
Wildlife Service, Division of Federal Aid, Fiscal Years 1999 and 2000.” The scope of its
audit work, as stated in the announcement letter to the Department, was to evaluate (1) the
adequacy of the Department’s accounting system and related internal controls; (2) the
accuracy and eligibility of the direct and indirect costs claimed by the Department under the
Federal Aid grant agreements with FWS; (3) the adequacy and reliability of the Department’s
hunting and fishing license fees collection and disbursement process; and (4) the adequacy of
the Department’s purchasing system and related internal controls. The audit was also to
include an analysis of other issues considered to be sensitive and/or significant to the FWS.
The audit work at the Department covered claims totaling approximately $11.8 million on
FWS grants that were open during the Department’s fiscal years ended June 30, 1999 and
2000 (see Appendix 1). The audit agency’s agreement with FWS expired before issuance of
its draft report to the State of Delaware.

        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency. At the time of expiration, final audit reports on several
uncompleted audits had not been issued and were in various stages of the audit and reporting
processes. The other audit agency indicated in a September 28, 2001 memorandum that only
a portion of the auditors work papers had been reviewed by the audit supervisor to ensure
that (1) sufficient, competent and relevant evidence was obtained, (2) evidential matter
contained in the working papers adequately supported the audit findings in the report, and (3)
sound auditing techniques and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the
findings that were supported by the working papers. Accordingly, our review was limited to
performing the procedures set forth in the Intra-Departmental Agreement and our
conclusions presented in the report are limited to findings substantiated by the working
papers. We did not perform any additional audit work of the Department’s records and the
limited work performed under these procedures does not constitute an audit by the OIG in
accordance with Generally Accepted Government Auditing Standards.

                                   Results of Review
                The working papers demonstrated that the Department’s accounting,
purchasing, revenue and disbursement controls, billing of grant costs, grant compliance,
certification of the accuracy of the number of hunting and fishing licenses, and its required
assent legislation were adequate for Federal Aid participation. The working papers also
identified a deficiency in the Department’s land exchange process that is discussed below
and two management issues that are presented in Appendix 2.




                                               2
Land Exchange

       The Department did not have written procedures for the disposition or exchange of
land. The Code of Federal Regulations (43 CFR 12.71 (C)) Real Property Disposition states,
“When real property is no longer needed for the originally authorized purpose, the grantee or
subgrantee will request disposition instructions from the awarding agency.” However, the
Department did not request disposition instructions from the FWS when it processed a land
exchange with a local conservation organization.

       In 1997, the Delaware Wild Lands (DWL) approached the Department with a
proposal to exchange a DWL property (Vogel/Guessford Tract at 743 +/- acres) for property
purchased by the Department (Derrickson Tract at 554 +/- acres), plus two additional parcels
to make up the difference in size. One of the additional parcels (the 87 acre Metz Tract) was
purchased by the Department with Federal Aid assistance. The Metz Tract was purchased in
1964 and is composed almost entirely of wetlands. The Department has made little
investment in this Tract because it has remained in its natural state as a wildlife refuge. No
hunting was allowed, no duck blinds were constructed, and little habitat work was
accomplished. Only minimal boundary markings were maintained to identify the tract as
being purchased with Federal Aid funds.

        The Department’s records of the lands exchanged did not readily identify the source
of funding for the acquisitions of the properties exchanged. Consequently, the Department
proceeded with the exchange without realizing that land purchased with Federal assistance
was involved and, therefore, did not seek disposition instructions from FWS. After this
matter was brought to the Department’s attention during the course of the review, it took
immediate corrective action. It advised FWS of this exchanged property and asked for their
recommendation to resolve this issue. In addition, the Department issued a draft Property
Exchange/Transfer or Sale Protocol Policy. This draft policy requires a joint determination
by the Federal Aid Coordinator and the Lands Acquisition Specialist to ascertain whether a
property has a Federal interest or whether it was purchased with Federal or state funds. The
draft policy also requires copies of proof of the funding sources as support for this
determination and details the “disposition instructions” from the funding agency which must
be completed if the property was acquired with Federal assistance or otherwise has a Federal
interest. The policy further requires that any Federal interest in the property be recorded on
the deed.

Recommendation

         We recommend that FWS ensure that its interests in the exchanged property are
protected and that the Department issues the draft Property/Exchange or Sale Protocol Policy
in final form.

Department’s Response:

       The Department concurred with the finding and stated that it had finalized the
Property Exchange or Sale Protocol Policy and sent it to FWS’ Region 5 Division of Federal


                                              3
Aid. It also said that the final policy addresses issues identified during the audit with respect
to a land exchange that occurred without concurrence of the Division of Federal Aid and that
the policy will ensure that any future sale or transfer of lands will comply with Federal Aid
requirements.

Office of Inspector General Comments:

       The FWS, in an August 8, 2002 letter to our office, concluded that sufficient actions
had been taken to resolve this issue and that a corrective action plan will not be necessary.
Therefore, we consider the recommendation implemented and a response to this report is not
required.

       Section 5 (a) of the Inspector General Act (Public Law 95-452, as amended) requires
the Office of Inspector General to list this report in its semiannual report to Congress. If you
have any questions regarding this report, please contact Gary Dail, Federal Assistance Audit
Coordinator at (703) 487-8032.

       This advisory report is intended solely for the use of grant officials of the U.S. Fish
and Wildlife Service, and is not intended for, and should not be used buy anyone who is not
cognizant of the procedures that were applied to the review of another audit agency’s work.

cc: Regional Director, Region 5
      U.S. Fish and Wildlife Service




                                                4
                                                   APPENDIX 1


DELAWARE DEPARTMENT OF NATURAL RESOURCES
       AND ENVIRONMENTAL CONTROL
     SCHEDULE OF GRANT COSTS CLAIMED
       FOR FISCAL YEARS 1999 AND 2000


   GRANT       GRANT         AMOUNT         FEDERAL
  NUMBER      AMOUNT         CLAIMED         SHARE
F-2-D-47         $600,000       $461,388       $346,041
F-2-D-48           500,000        364,641        273,481
F-2-D-49           500,000        432,476        324,357
F-40-D-8         1,110,500        814,654        609,643
F-48-D-6           540,000        342,352        256,764
F-48-D-7           983,000        969,763        727,322
F-48-D-8           760,000        483,957        362,968
F-55-D-1         1,270,000      1,204,841        903,631
F-62-D-1           517,000        517,000        387,750
F-63-D-1         1,510,000      1,512,429      1,132,500
F-65-R-1         1,049,900        362,276        271,469
W-5-D-50           971,418        957,726        718,295
W-5-D-51           892,000        861,533        646,150
W-5-D-52           970,000        832,219        624,400
W-34-S-1           650,000        533,682        401,813
W-34-S-2           682,000        557,365        418,024
W-34-S-3           970,000        557,247        417,935
     Totals    $14,475,818    $11,765,549     $8,822,543
                                                                               APPENDIX 2

                              MANAGEMENT ISSUES


       The working papers identified weaknesses in timekeeping and in debarment and
suspension certifications that the Department corrected during the course of the review, as
follows:

A. Timekeeping Procedures

        In accordance with the provisions of Office of Management and Budget Circular A-
87, Attachment B, paragraph 11.h.(5)(d), personnel activity reports or equivalent
documentation must be signed by the employee. However, the working papers indicated that
the Department’s timekeeping procedures do not require the employee to sign or certify to
the time recorded on the timesheet nor does the timesheet contain a signature block for the
employee. In addition, the Department’s procedures do not require daily recording of time
charges to the daily activity report (timesheet) or the completion of the timesheet in ink and
do not include instructions on how to make corrections to the timesheet.

       The working papers indicate that the auditors reviewed the current and prior
timesheets and the Activity Summary Reports for 25 grantee employees and noted the
following deficiencies:

   •   25 employees had not signed their timesheets.
   •   3 employees completed their timesheets on a monthly basis.
   •   8 employees completed their timesheets in pencil.
   •   9 employees made corrections by white out or erasing.

      The Department took immediate action regarding this matter and issued revised
General Instructions for Timesheets dated July 12, 2001, which stated:

    • Timesheets are to be completed in ink and on a daily basis, not weekly or monthly.
    • Corrections to any timesheet or summary should be crossed through, not eliminated
      using white correctional fluid. Any corrections made must have the employee’s
      initials beside the correction.
    • All summary timesheets must be signed by the employee and supervisor.

        We believe that the corrective action taken by the Department adequately addressed
the deficiencies noted above.




                                              6
B. Debarment and Suspension Certifications

       The Department submits an annual FWS required form entitled “Certifications
Regarding Debarment, Suspension and Other Responsibility Matters, Drug-Free Workplace
Requirements and Lobby.” The Department is certifying that the vendors are not debarred or
suspended from doing business with Federal agencies. However, the Department does not
have a system to check for debarred or suspended vendors as required by Executive Order
12549, Debarment and Suspension.

        The work papers showed that the Department responded to this issue by issuing
guidance to its offices. Effective April 27, 2001, the Department is required to use a revised
“Bid Quotation Summary Form” for all purchase orders of $2,500 to $10,000. The Summary
Form requires that the vendor certify that he is not on the Federal Debarred and Suspended
listing. Any purchase above $10,000 will require additional instructions from the Federal
Aid Coordinator or the Fiscal Administrative Officer.

       We believe the action taken by the Department is sufficient to resolve this issue.




                                              7
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
